                                                  NATIONAL SCIENCE FO~ATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM
                                                                                                               \'\



Case Number: A12030023                                                                       Page 1 of 1




                 Our office received an allegation of plagiarism within an NSF proposal. 1 We reviewed
         the proposal and found material copied from one source. 2 A closer examination, however, found
         that the proposal and the source shared a co-author/collaborator. 3 Specifically, one of the
         source's co-authors was the PI's sponsoring scientific advisor or mentor, had previously worked
         with the PI, and wrote the PI a targeted letter of recommendation for inclusion with this proposal.
         We determined no misconduct occurred. Accordingly, this case is closed with no further action
         taken.




                                                                                                                     II

                                                                                                                     I


NSF OIG Fonn 2 (11/02)
